HHS/OIG, Audit -"State of Florida's Efforts to Account for and Monitor Sub-Recipients' Use of Public Health Preparedness and Response for Bioterrorism Program Funds,"(A-04-03-01007)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"State of Florida's Efforts to Account for and Monitor Sub-Recipients' Use of Public Health Preparedness and Response
for Bioterrorism Program Funds," (A-04-03-01007)
October 21, 2003
Complete
Text of Report is available in PDF format (285 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Florida Department of Health (Florida) generally accounted for
program funds ($44.8 million received for the 4-year period ending August 30, 2003) in accordance with the terms and conditions
of the cooperative agreement with the Centers for Disease Control and Prevention (CDC) and applicable departmental regulations
and guidelines.  Specifically, Florida recorded, summarized and reported transactions by specific focus area.  At
the time of our review, Florida did not have any sub-recipients.  When Florida contracts with
sub-recipients, it has monitoring procedures in place.  In addition, Florida is
developing a site visit component.  Further, Florida officials indicated that CDC
funding had not been used to supplant programs previously funded by other organizational sources.  We recommended
Florida implement sub-recipient monitoring when contracts are awarded, and address problem areas, as they are identified.  Florida
concurred with our findings and recommendation and is taking corrective actions to improve its bioterrorism grant program.